No. 20-559
IN THE

~upreme Qtourt of tbe mmteb ~tateg
JANE DOE,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Brief of
Federal Courts and Constitutional Law Professors as Amici Curiae in Support of
Petitioner, in Doe v. United States, No. 20-559, complies with the word limitations,
as it contains 5,999 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: November 30, 2020

2;i

